<html>
<title> - NOMINATION OF THOMAS M. SULLIVAN TO BE CHIEF COUNSEL FOR ADVOCACY AT THE U.S. SMALL BUSINESS ADMINISTRATION</title>
<body><pre>[Senate Hearing 107-492]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-492
 
                 NOMINATION OF THOMAS M. SULLIVAN TO BE 
                   CHIEF COUNSEL FOR ADVOCACY AT THE 
                   U.S. SMALL BUSINESS ADMINISTRATION 
=======================================================================

                                HEARING

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                          OCTOBER 16-17, 2001

                               __________

    Printed for the Committee on Small Business and Entrepreneurship


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                        U.S. GOVERNMENT PRINTING OFFICE
80-015                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

        .........................................................

                      ONE HUNDRED SEVENTH CONGRESS

                              ----------                              
                 JOHN F. KERRY, Massachusetts, Chairman
CARL LEVIN, Michigan                 CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     CONRAD BURNS, Montana
JOSEPH I. LIEBERMAN, Connecticut     ROBERT F. BENNETT, Utah
PAUL D. WELLSTONE, Minnesota         OLYMPIA J. SNOWE, Maine
MAX CLELAND, Georgia                 MICHAEL ENZI, Wyoming
MARY LANDRIEU, Louisiana             PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           GEORGE ALLEN, Virginia
JEAN CARNAHAN, Missouri              JOHN ENSIGN, Nevada
    Patricia R. Forbes, Democratic Staff Director and Chief Counsel
               Emilia DiSanto, Republican Staff Director
               Paul H. Cooksey, Republican Chief Counsel





                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Kerry, The Honorable John F., Chairman, Committee on Small 
  Business and Entrepreneurship, and a United States Senator from 
  Massachusetts..................................................     1
Bond, The Honorable Christopher S., Ranking Member, Committee on 
  Small Business and Entrepreneurship, and a United States 
  Senator from Missouri..........................................     4
Cleland, The Honorable Max, a United States Senator from Georgia.    13
Bennett, The Honorable Robert F., a United States Senator from 
  Utah...........................................................    15
Enzi, The Honorable Michael B., a United States Senator from 
  Wyoming........................................................    15

                           Witness Testimony

Barreto, Hector V., Jr., administrator, U.S. Small Business 
  Administration, Washington, D.C................................     4
Sullivan, Thomas S., nominee to be Chief Counsel for Advocacy, 
  U.S. Small Business Administration, Washington, D.C............    22

       Alphabetical Listing of Statements and Material Submitted

Barreto, Hector V., Jr.
    Testimony....................................................     4
Bennett, The Honorable Robert F.
    Opening statement............................................    15
Bond, The Honorable Christopher S.
    Opening statement............................................     4
    Prepared statement...........................................    10
Cleland, The Honorable Max
    Opening statement............................................    13
    Prepared statement...........................................    14
Cantwell, The Honorable Maria
    Prepared statement...........................................    66
Enzi, The Honorable Michael
    Opening statement............................................    15
    Prepared statement...........................................    16
Kerry, The Honorable John F.
    Opening statement............................................     1
    Prepared statement...........................................    19
    Nomination and confirmation forms for Mr. Sullivan...........    67
Sullivan, Thomas S.
    Opening statement............................................    22
    Prepared statement...........................................    30
    Resume and bio...............................................    38
    Answers to Committee questions...............................    40

                         Letters for the Record

Brand, Stanley M., Frulla, David E., Brand & Frulla, Washington, 
  D.C............................................................    48
Davis, Tom, Tom Davis Associates, LLC, Washington, D.C...........    50
Faris, Jack, president & CEO, National Federation of Independent 
  Business, Washington, D.C......................................    51
George, Scott, Mid America Dental and Hearing Center, Mt. Vernon, 
  MO.............................................................    52
Josten, R. Bruce, executive vice president for governmental 
  affairs, United States Chamber of Commerce, Washington, D.C....    53
Kennedy, The Honorable Edward M., United States Senator from 
  Massachusetts, Washington, D.C.................................    54
McCracken, Todd, president, National Small Business United, 
  Washington, D.C................................................    55
McGuirk, Dennis, president, IPC, The Association Connecting 
  Electronic Industries, Washington, D.C.........................    56
Morrison, James, Ph.D., president, Small Business Exporters 
  Association, Washington, D.C...................................    57
Regan, Grace Cotter, executive director, Boston College Alumni 
  Association, Newton, MA........................................    58
Satagaj, John S., president and general counsel, Small Business 
  Legislative Counsel, Washington, D.C...........................    59
Steger, Wilbur A., president, CONSAD Research Corporation, 
  Pittsburgh, PA.................................................    61
Swain, Frank S., Baker and Daniels, Washington, D.C..............    62
      
    [GRAPHIC] [TIFF OMITTED] T0015.001
    






                  NOMINATION OF THOMAS M. SULLIVAN TO
                  BE CHIEF COUNSEL FOR ADVOCACY AT THE
                   U.S. SMALL BUSINESS ADMINISTRATION

                              ----------                              


                       TUESDAY, OCTOBER 16, 2001

                              United States Senate,
          Committee on Small Business and Entrepreneurship,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:51 a.m., in 
room SR-428A, Russell Senate Office Building, the Honoable John 
F. Kerry (Chairman of the Committee) presiding.
    Present: Senators Kerry, Levin, Wellstone, Cleland, Bond, 
Bennett, Enzi, Allen, and Ensign.

  OPENING STATEMENT OF THE HONORABLE JOHN F. KERRY, CHAIRMAN, 
SENATE COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP, AND A 
            UNITED STATES SENATOR FROM MASSACHUSETTS

    Chairman Kerry. The hearing will come to order.
    I do want to raise a couple of issues for the 
Administrator, who I appreciate being here, but who I gather 
has gone downstairs for a moment. So I will wait until he gets 
back up here and begin the process of introducing our nominee 
and the formal part of the hearing itself.
    My apologies to all parties for the delay in proceeding. 
What we had, as I am sure you can imagine, is an important 
meeting of Senators with the Sergeant at Arms and the FBI 
personnel and health personnel and others with respect to 
yesterday's incident. It was important for all of us to be 
there.
    This morning we are having a hearing on Mr. Thomas Sullivan 
to serve as the Chief Counsel for Advocacy at the SBA. I am 
particularly delighted to welcome him here, and members of his 
family. His mother, Mary Kaye Sullivan I have not met. There 
she is. Welcome, we are delighted to have you.
    She hails from Wellesley, Massachusetts; his brother, Greg 
Sullivan of Newton; and his fiancee, Ms. Juliane Carter. We are 
delighted to welcome all of you.
    Let me just say that the fact that your mother is from 
Wellesley, and your family from Massachusetts, and you too, 
will serve you extraordinarily well here today.
    [Laughter.]
    Chairman Kerry. This is a very important position. Witness 
the fact that it is a nomination by the President of the United 
States
and it does require confirmation of the U.S. Senate. It is a 
job with an important mission, of helping to really facilitate 
the ability of small businesses to be able to reach us and to 
meld the policies of the Administration, whoever's 
administration it is, and the small business community itself.
    It has a wide scope of authority and responsibility. We 
created it to lighten the regulatory load as well as to try to 
facilitate the implementation of the Regulatory Flexibility Act 
and the Small Business Regulatory Enforcement Fairness Act. So 
Mr. Sullivan, these are important jobs and I am not going to go 
through all of the aspects of the job except to say that this 
is a position, when properly filled, that really facilitates 
the ability of small business to do its job, and frankly 
facilitates the relationship between us, the SBA, and the small 
business community. So properly administered, it has an 
enormous ability to be positive.
    Now I need to raise an issue that regrettably was not going 
to be part of this hearing at all, and it is really a sidebar, 
Mr. Sullivan, to your nomination. But I want to talk directly 
to the Administrator for a minute.
    Mr. Administrator, I'm delighted you are here to support 
this important nomination. I think Mr. Sullivan is a very fine 
candidate and I think he is going to make an excellent advocate 
for small business and I am confident we are going to 
facilitate his confirmation, and I certainly pledge to do that.
    But I want to raise a couple of serious issues with you, 
with respect to where we stand in our relationship, the 
relationship of this Committee and the Congress with the SBA 
and the Administration. As you know, Mr. Barreto, small 
businesses across the country are literally dying for help in 
the aftermath of the September 11th attacks. Thousands of 
people have lost their jobs because, No. 1, business 
generically is bad; and No. 2, there has been a tremendous fall 
off of the spin-off businesses that are affected by September 
11th.
    As you also know, Senator Bond and I, together, in a 
bipartisan way, worked with all of the community. We did what 
this legislature is supposed to do at its best, which is reach 
out. We held a series of conference calls with staff because we 
had trouble with people not able to fly across the country. So 
we facilitated it in modern ways.
    We introduced the American Small Business Emergency Relief 
and Recovery Act. It has broad support. It was introduced with 
the support of all the Democrats of this Committee and the 
majority of the Republican members. I think there were only two 
people who were not finally part of it. In the Senate as a 
whole, we now have 43 co-sponsors, almost half the Senate. I 
mean, I would be amazed if this is not a vote of 100 Senators, 
if it was taken to a vote.
    In addition to that, it was drafted with the input of small 
business organizations, trade associations, SBA's lending and 
counseling partners through more than 30 meetings and 
conference calls. It is a good bill. It does good for people.
    Despite the fact that I invited the Administration, through 
you, to personally be involved in this effort weeks ago, 
despite the fact that we made four separate requests for the 
Agency to work with us, we have never received any word 
whatsoever. No cooperation, and no input.
    Yesterday, just as our bill was being cleared to be voted 
out of the U.S. Senate by unanimous consent, what happens? The 
Administration asks the Republican leadership to put a hold on 
the bill so it cannot come up for a vote. The Administration 
then calls to tell my chief of staff that they have to put a 
hold on the bill because tomorrow the Administration is going 
to publish some regulations to expand the disaster loan program 
to the whole country.
    The implication being that this partial remedy of expanding 
the disaster loan somehow meets the need of the broad 
assistance provided through the bill Senator Bond and I and 
others have introduced.
    Now I am pleased that the Administration is finally seeing 
the importance of trying to do something for small business, 
but after refusing to work with the Committee, a month has gone 
by. Now we have a reaction that, in the judgment of many of us, 
simply does not do the job that we have intended to do. Yet, 
the Administration is trying to block what we have intended to 
do, even though it has the majority support of the U.S. Senate 
and would fly through the Congress.
    Now I am not going to go through all of the story of what 
small business is. We talk about it all the time, about how 
half the workers in the private sector are in small businesses.
    But let me just point out to you a couple of things in one 
industry alone, and that is the business of chauffeured ground 
transportation across the country. That industry used to employ 
about 160,000 people a month ago. Since September 11, they have 
laid off approximately 80,000 people. Fifty percent, half the 
jobs are gone.
    Now that is one of many industries in trouble. Again, I 
could pose the question about the jobs that might have been 
saved if we had moved sooner on this in a cooperative fashion. 
I do not know what the Administration is waiting for, before it 
recognizes that is a serious problem. One hundred percent 
layoffs? I do not know what the measurement is that triggers a 
response.
    But I have received nothing in writing. I have received no 
personal telecommunication, and I do not think Senator Bond 
has, that has engaged us in a way that says why do you not do 
this? Or why do you not do that? Or perhaps we ought to change 
this, and then we would willingly support this.
    But let me tell you why I think there is a big difference 
between what you are now poised to say you are going to do by 
regulation versus what we wanted to do legislatively. I do not 
think what you are doing is going to restore confidence in the 
markets at all, simply declaring emergency disaster loan 
assistance.
    Second, it is not clear at all that it is going to reach 
enough people that need loan assistance. It does nothing for 
those businesses needing help with Federal contracts delayed or 
suspended, or those needing business counseling on how to stay 
afloat after the attacks.
    Third, you have chosen to rely on a program that was 
drastically cut in your own budget this year.
    Fourth, it is my understanding that the Administration does 
not intend to request additional funding for September 11 
disaster loans, so there is going to be a gap between what you 
are offering and what you are able to offer. That is 
frustrating because we thought you had finally come to the 
point of understanding that we need to help these small 
businesses at this point.
    And last, why would you choose to rely on the most 
expensive program in the SBA to deliver assistance? If you had 
worked with the Committee here we could have tailored the SBA 
loans program to help small businesses in ways that would cost 
less. For instance, it costs about $17 to $20 per $100 to make 
a disaster loan. It costs a little more than $1 to make a loan 
from the 7(a) program. It costs zero, nothing to make a loan 
out of the 504 program. Those are the ways in which we were 
trying to approach this issue.
    So Mr. Barreto, I think it is pretty important, from my 
perspective, to try to clarify this so we can proceed forward 
here in good faith, which is the way we certainly approach 
this.
    Let me turn to Senator Bond for his comment, and then we 
will ask you to respond.

   OPENING STATEMENT OF THE HONORABLE CHRISTOPHER S. BOND, A 
              UNITED STATES SENATOR FROM MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman.
    Let me just say that I agree with Senator Kerry. I was very 
disturbed to learn that the measure that we had crafted on a 
bipartisan basis, and continually sought the input from the SBA 
and OMB staff, we wind up as we are about to pass it, the House 
is primed to pass it, then the OMB has asked that the 
leadership put a hold on it.
    Frankly, I find it a little disingenuous. I have asked the 
Republican leadership to bring S. 1499 up as soon as possible, 
because I do believe that we can still work together on it. We 
need to make sure we have the best assistance available.
    It truly is disturbing to me that all the time we thought 
we were working together, asking for input, we find out not at 
the 11th hour, but 11:59, that the Administration has chosen to 
go a different way and seeks to block our effort. That is a 
real problem and I hope that we have learned that that is not 
the way to make things happen.
    So with that, Mr. Chairman, do you want to have the 
Administrator respond?
    Chairman Kerry. It may be that the Administrator wants to 
respond.
    Senator Bond. Then I want to say one or two things about 
Mr. Sullivan, very briefly.
    Chairman Kerry. Absolutely. He can respond and then I will 
recognize you again.

        STATEMENT OF HECTOR V. BARRETO, ADMINISTRATOR, 
               U.S. SMALL BUSINESS ADMINISTRATION

    Mr. Barreto. Thank you very much.
    Chairman Kerry, Senator Bond, Senator Bennett and the other 
members of the Small Business Committee, thank you for inviting 
me to appear before you to introduce Tom Sullivan as the 
President's nominee for Chief Counsel for the Office of 
Advocacy. Before I introduce Tom, with your permission, I would 
like to discuss the status of our response to the September 
11th tragedy.
    The Administration's primary concern has been to address 
the immediate needs of the most affected by the tragedy at 
ground zero and the Pentagon. The President, with the support 
of the American people and the world community has committed to 
fight a war against terrorism. We are fighting that war on many 
levels. The President has vowed to bring the evildoers to 
justice while restoring confidence and prosperity to the 
American people.
    The Administration knows that a key factor in economic 
prosperity is a strong small business community, and we can all 
be proud of our Administration's response to the victims of the 
disaster at ground zero. SBA staff is assisting disaster 
victims at nine locations. We have deployed approximately 94 
people in the New York City area, and an additional 205 people 
at our Niagara Falls district office. We also have several of 
our disaster loan experts from offices from around the country 
temporarily assigned to New York to provide additional support 
to that area.
    We have worked on getting disaster relief information to 
those who need it. To that end, we have contacted all elected 
officials in the New York City area to provide them with 
information about the SBA's program by phone, e-mail, and 
regular mail. Our staff has been canvassing the neighborhoods 
to talk to the small business owners suffering from this 
tragedy in order to inform them about SBA assistance. We have 
also provided Chinese and Spanish-speaking translators to 
assist in that effort.
    SBA has directly assisted 12,000 individuals and businesses 
with loan applications. We have approved 346 disaster loans 
totaling $36 million with an average loan size of $100,000.
    The hard work of the Administration and the Agency has not 
gone unnoticed. We have a disaster team that I am honored to 
work with. As we have grown to expect, they have gone above and 
beyond in their effort to provide relief to small businesses in 
the fastest and most effective means possible. We have received 
many compliments on the speed and effectiveness of our 
response. Governor Pataki and Mayor Guiliani, as well as our 
legislative leaders, have commented on our excellent work at 
the SBA.
    I think I was most touched, though, when one of our loan 
recipients in New York said that we are the most ``humane 
agency'' in the Government. That is quite a compliment and also 
quite a charge to live up to. We intend to live up to that 
charge.
    In addition to the compliments, we have also heard 
requests. The requests are that we expand economic injury 
recovery beyond ground zero. We have heard these requests from 
our legislative partners.
    As Senator Kerry mentioned, Senator Bond, we have also 
spoken with Congressman Velasquez. Through hearings that 
Chairman Manzullo of the House Small Business Committee held.
    We have heard from Governors from across the Nation 
requesting that we assist small businesses in their States. We 
have also heard from small business industry representatives, 
and small business owners themselves.
    I want you to know that the SBA has heard that message and 
the Administration has heard that message, and we are working 
together to find the most effective and efficient method to 
assist small businesses.
    The SBA's programs have evolved over the years to meet 
these needs. The SBA's disaster assistance loan program is the 
primary Federal program for funding recovery for private sector 
disaster victims. This program offers a low-interest rate loan, 
not to exceed 4 percent, as compared to non-disaster loans 
which are at 5 percent, 6 percent, or sometimes a greater 
percentage rate. The term of those loans can be for as long as 
30 years, providing greater flexibility to small business 
owners, especially at this time when they need it the most.
    We believe the economic injury recovery loan addresses 
precisely the type of injury that Congress considered when it 
developed this product. And we have been working on a proposal 
with the Administration. Through the expansion of a recovery 
proposal, we would (A), expand recovery to small businesses 
located outside of ground zero through our existing disaster 
loan program. (B), we would provide loans to businesses that 
have been directly injured by the September 11th event, and the 
Federal actions taken as a result of those events. And (C), we 
can accomplish the expansion through a change to our 
regulations. By making a regulatory change instead of a 
legislative change, we can provide the swiftest and most cost-
effective and efficient response to small business.
    We continue to work with the Administration to refine this 
proposal and we hope that we will have a more definitive 
statement with respect to this aspect of the economic recovery 
shortly.
    At this time, it gives me great pleasure to introduce Tom 
Sullivan, the President's nominee for Chief Counsel for the 
Office of Advocacy. Part of my commitment, when I appeared 
before you for my own confirmation, was to work with the 
President to put the right people in key positions at the SBA, 
so that we have the best team available to meet the needs of 
small businesses.
    I believe Tom Sullivan is the best qualified person for 
Chief Counsel for Advocacy. His experience at the National 
Federation of Independent Business Owners demonstrates his 
commitment to small business. His work as regulatory policy 
counsel put Government agencies on notice that the hundreds of 
thousands of members of the NFIB needed the Government to be 
more responsive to the unique nature of small business.
    Prior to his tenure at NFIB, Tom worked at the EPA and at 
the Justice Department. This experience will prove to be 
invaluable as he works to ensure that all Government agencies 
help small business to succeed rather than bury them under the 
mandates and paperwork.
    Mr. Chairman, I fully support Tom's nomination and look 
forward to working with him in supporting small business 
throughout our Nation. Thank you.
    Chairman Kerry. Thank you, Mr. Barreto. I am going to go 
back to Senator Bond in a moment, but let me come back, if we 
can. Essentially, the statement you just gave is a prepared 
statement and not, frankly, a full answer to the question that 
Senator Bond and I asked.
    In many ways, what you are telling the Committee 
indirectly, without quite answering my question directly, is 
that you are simply going to stick by the disaster loan and 
that is it, nothing more? You do not intend to work with us and 
that is where we are; is that correct?
    Mr. Barreto. No, sir.
    Chairman Kerry. Is it fair to say that you did not really 
address our question?
    Mr. Barreto. Well, I hope that my statement articulated 
what the response of the SBA has been, not only to the 
disaster----
    Chairman Kerry. I think you have done a laudable job. I am 
not here to question whether at ground zero you have been 
present. I am glad you have, and I think you have done a 
laudable job. That is not the issue here.
    But this is much broader across the country than just 
ground zero. What we are talking about is the American 
response. You do not have enough people. You do not have enough 
loan officers or capacity or money in the disaster program to 
address the needs of the Nation.
    That is what we are trying to do. We are trying to kick all 
small business in to gear here and provide the capacity to sort 
of privatize out, if you will, the ability to be able to meet 
the response. That is how you do it through those other 
programs.
    I guess the question is, again, why is the Administration 
blocking our bipartisan effort to do that?
    Mr. Barreto. Senator, as we discussed when we met, we have 
received numerous proposals for response. One of the things 
that we are clear about is that there is an outpouring of 
commitment and care for small businesses across the country. As 
I have mentioned to you, we have received no less than six 
proposals from Congress, industry, representatives, Governors. 
We have taken a very serious look at those proposals, and it 
has taken us a little while to go through those and compare the 
provisions of those different proposals.
    The reg change that I described is not to replace any of 
those other efforts. But one of the things that I know that you 
are committed to, and this Committee is committed to, is how do 
we help small business on a national basis in the quickest, 
most effective, most efficient manner possible?
    Chairman Kerry. We have designed that and we have had no 
input from you to the contrary. We have worked with our House 
colleagues and they are prepared to pass the bill, too.
    We also have reached out to Governors and to the various 
trade associations and interested parties. I am sure they are 
not communicating one thing to you and one thing to us with 
respect to these needs.
    Mr. Barreto. One of the things that we wanted to be very 
clear about when we looked into this reg change is to make sure 
that our folks that we have in our disaster team were prepared 
to look at this and to respond to this on a nationwide level. 
We have gotten assurances from our disaster folks that they 
will be able to do this, that we have the right personnel, that 
we will be able to respond to these small business needs on a 
nationwide level.
    One of the things that we are also very glad about is that 
these loans are for 4 percent, and sometimes less than 4 
percent, over a 30-year term. For a lot of the small businesses 
that are hurting right now, that is a very, very important 
proposal for them.
    Chairman Kerry. I do not question that. It is a good one 
and if it is that good, the question is then begged why you cut 
the amount of money available for it in the budget. But that 
having happened, we are now trying to stopgap it and make up 
for the fact that there is a limited pool there. So we have to 
do more than just that.
    I would like to find a way, like Senator Bond, I would like 
to get this thing passed. It is 1 month later. A lot of these 
companies, their credit cannot be extended. They have got to 
make a decision. Are they going to stay alive or are they not? 
They cannot afford to sit around while the U.S. Congress is 
bickering, which incidentally, we are not.
    Now if you have a difference with this bill I would like 
you to come back this afternoon as the Administration and tell 
us what it is. We will sit there and work with you. We are 
prepared to work with you. We haven't even heard from you.
    We would like to pass it. I do not know, Senator Bond, if 
you think there is a better way to try to do it?
    Senator Bond. Mr. Chairman, Mr. Administrator, I think we 
are talking at two different levels. Nobody disagrees with your 
praise for the work that your people have done on the ground. 
There may be things you can do by regulation. But we have 
listened to all the groups, we have responded to our 
constituents, and we have come together on a bipartisan basis, 
as I think we have emphasized this Committee works. We put 
together what we think is a sound, bipartisan solution. We have 
asked SBA staff, we have asked OMB for their comments on it. 
Nothing.
    Then we find, when the House is ready to pass it, we are 
ready to pass it, you put a hold on it. Nobody has told us what 
is wrong with the bill. If you have got a better way to do it, 
do not keep it a secret. This is a really shaky start, because 
we are ready, we have been ready to work with you on a 
bipartisan basis, which is the way we get things done around 
here.
    I hope that this is an experience we will not experience 
again. Somebody said experience is what you get when you 
expected to get something else. I expected to get something 
else in working with the SBA.
    With that, I think we have made our point. At least I hope 
we have.
    Mr. Barreto. Yes, you have, Senator. I just want to State 
that our relationship and our working relationship is something 
that we appreciate very much and we are committed to continue 
working with you.
    I agree with you that the timing of this regulation could 
have been a lot better. We will work with you to make sure that 
this information is passing back and forth in a very timely 
basis. I think that we are in a truly unique situation. The SBA 
has never had to respond to a disaster of this type. There has 
never been a disaster of this type.
    One thing that I am clear about is that there is tremendous 
commitment from this Committee, from the House Committee, from 
the business organizations that I have been meeting with, and 
leaders all across the country, to do the right thing for small 
business. I want you to know that we are committed to the same 
thing, and I thank you for the opportunity to be here and to 
make this statement.
    Chairman Kerry. Mr. Administrator, this will be the final 
word on it and then we will move to the Sullivan nomination. It 
is not the timing of the regulation. I think we could care less 
about the timing of the regulation. That is your right and 
prerogative and more power to you if you are going to 
facilitate the extension of those loans. We are all for it.
    It is the blocking of our bill at the same time, which 
sends a completely different message. One for the other. That 
has got to stop. You have got to either lift that or tell us 
what you need changed immediately because there are a lot of 
other tools here in the U.S. Senate and there are a lot of 
other things the Administration needs to move forward on. We 
are intent on trying to get this help to business people.
    As Senator Bond just said, if you have a better way to do 
it, terrific. There is no pride of authorship here. We think 
what we have is pretty good, but if you can improve on it, 
terrific. But I am not going to have a dark of night hold at 
the same time as people are talking about cooperating. That is 
unacceptable.
    Let me let Senator Bond speak.
    Senator Bond. Mr. Chairman, thank you. I will abbreviate my 
comments but I do want to extend a warm welcome on a cloudy day 
to Tom Sullivan, his fiancee, family members, and friends.
    I think he is a very qualified candidate for the position 
of Chief Counsel of Advocacy. His experience and track record 
representing small businesses during his years at the NFIB make 
him superbly qualified to handle the important role.
    Tom, I really look forward to working closely with you as 
you tackle the hard work of representing vigorously the views 
and interests of small business.
    I am going to put in one very brief plug for a measure that 
I have introduced with respect to the Regulatory Flexibility 
Act and the SBREFA requirements. GAO has told us that the term 
significant economic impact to a substantial number of small 
entities need to be clearly defined. I have introduced a 
measure called Agency Accountability Act, AAA, which would give 
the Chief Counsel the power to conduct a rulemaking to define 
those critical terms. The Act would also increase the list of 
agencies required to conduct small business review panels. We 
think the process is working well but can work better.
    We look forward to working with you on that. I am confident 
that we can do a great deal for small business.
    Mr. Chairman, I have to apologize and excuse myself, 
because I had scheduled another meeting in just a few minutes. 
But we look forward to working with Mr. Sullivan.
    [The prepared statement of Senator Bond follows.]
    [GRAPHIC] [TIFF OMITTED] T0015.002
    
    [GRAPHIC] [TIFF OMITTED] T0015.003
    
    [GRAPHIC] [TIFF OMITTED] T0015.004
    
    Chairman Kerry. Thank you very much.
    Let me just say to the Members of the Committee, I promise 
I want to try to expedite this nomination. It will probably, 
just because of the complications in our schedules this 
morning, with everything that is going on, be hard to get the 
quorum here now. But I will try to convene a quorum off the 
floor of the Senate at the first vote available. If all members 
could be alert to that, and we will try to have a vote in the 
President's Room off the Senate floor at the appropriate time.
    Senator Cleland.

        OPENING STATEMENT OF THE HONORABLE MAX CLELAND, 
              A UNITED STATES SENATOR FROM GEORGIA

    Senator Cleland. Thank you, Mr. Chairman.
    I would just like to thank you and the Ranking Member for 
your introduction of S. 1499, the American Small Business 
Emergency Relief and Recovery Act of 2001. I do think this is a 
hallmark piece of legislation which will go a long way toward 
assisting the small businesses which were directly and 
indirectly affected by the events of September 11th.
    Congratulations on that, Mr. Chairman. As an original 
cosponsor, I look forward to its speedy action before the full 
Senate.
    We are in an emergency. We are, I think, expected by the 
American people to act for their recovery in a very judicious 
and expedited way. So I endorse the concern of the Chair and 
Ranking Member about why this legislation was put on hold by 
the Administration. I look forward to its quick, early and easy 
passage.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Cleland follows.]
    [GRAPHIC] [TIFF OMITTED] T0015.005
    
    Chairman Kerry. Thank you very much, Senator Cleland.
    Senator Bennett.

OPENING STATEMENT OF THE HONORABLE ROBERT F. BENNETT, A UNITED 
                    STATES SENATOR FROM UTAH

    Senator Bennett. Thank you, Mr. Chairman. I was hoping to 
make this comment before the Administrator left, but Mr. 
Sullivan, if you would carry it back to him, my only comment in 
listening to this exchange goes back to what my professors used 
to tell me in college, which was read the question. You may 
understand all there is about the subject, but read the 
question.
    In my view, the Administrator did not hear what the 
Chairman was saying and he was answering a different question. 
He was answering it very well, but it was the wrong question. 
So as you deal with this Committee, listen to what the Chairman 
says and respond specifically to the Chairman and we will not 
have any problems.
    Thank you, Mr. Chairman.
    Chairman Kerry. Thank you, Senator Bennett.
    Senator Enzi.

       OPENING STATEMENT OF THE HONORABLE MICHAEL ENZI, 
              A UNITED STATES SENATOR FROM WYOMING

    Senator Enzi. Thank you, Mr. Chairman. I would just ask 
unanimous consent that a copy of my statement be in the record.
    Chairman Kerry. Without objection, your full statement will 
appear in the record.
    [The prepared statement of Senator Enzi follows:]
    [GRAPHIC] [TIFF OMITTED] T0015.006
    
    [GRAPHIC] [TIFF OMITTED] T0015.007
    
    Chairman Kerry. Mr. Sullivan, you have been well introduced 
to events in Washington this morning in ways you probably did 
not anticipate, but I certainly reiterate my welcome to you. We 
are really delighted to have you here, and I look forward to 
your testimony.
    [The prepared statement of Senator Kerry follows.]
    [GRAPHIC] [TIFF OMITTED] T0015.008
    
    [GRAPHIC] [TIFF OMITTED] T0015.009
    
    [GRAPHIC] [TIFF OMITTED] T0015.010
    
STATEMENT OF THOMAS S. SULLIVAN, NOMINEE FOR CHIEF COUNSEL FOR 
          ADVOCACY, U.S. SMALL BUSINESS ADMINISTRATION

    Mr. Sullivan. Good morning, Chairman Kerry, Senator Bond, 
and distinguished members of the Committee. It is an honor to 
appear before you as the President's choice to head the U.S. 
Small Business Administration's Office of Advocacy.
    It is touching to be surrounded by so many of my friends, 
colleagues in the small business community, and family. I would 
like to introduce my mother, Mary Sullivan and my brother Greg 
Sullivan. They flew down from Boston to share in this 
incredible honor for me. My other siblings, Barbara Roehrig in 
Denver, and BZ Honan in Marblehead are not able to be here. 
Last, I would like to introduce my fiancee, Juliane Carter, and 
thank her for being here with me this morning.
    I would like to briefly summarize my background and outline 
some exciting opportunities that await me if I am confirmed as 
Chief Counsel for Advocacy. In addition, Mr. Chairman, I ask 
that my complete statement be included in the record.
    Chairman Kerry. So ordered.
    Mr. Sullivan. I did not grow up in a small business. My dad 
was an attorney and my mom worked in hospital administration in 
Waltham and Mt. Auburn hospitals. I did grow up in the shadow 
of admirable public service. I am proud of my mother's devotion 
to making the town of Wellesley, Massachusetts a good place to 
raise a family. Her countless hours of civic meetings and long 
nights at our locally-elected legislative body, the Wellesley 
Town Meeting, rubbed off on me.
    While in law school, I followed in her footsteps and was 
elected to represent our neighbors in my precinct at the 
Wellesley Town Meeting. This fascination of public service and 
policy development led me to Washington, D.C.
    My small business perspective comes from the past several 
years working for NFIB. My view of what it is like to own and 
run a small business has been shaped by my interaction with 
people like Barbara Williams, who owned a small restaurant in 
Gettysburg, Pennsylvania and Mike Nobis, who runs a small 
printing company in Quincy, Illinois. Both Barbara and Mike 
fell prey to the unfairness of a Federal law that was supposed 
to clean up polluted sites, but instead sometimes victimized 
innocent small businesses.
    Bringing their perspective to Washington is what NFIB does 
best, and through that work I gained a great appreciation for 
what it takes to own a small business and how frustrating it 
can be when dealing with rigid Federal laws that oftentimes 
ignore the consequences in small business.
    I have not been able to help all those small business 
owners who have called or who I have met while working at NFIB. 
What is so tremendously exciting for me today is the 
opportunity I have, if confirmed, to help thousands, if not 
millions, more small employers.
    How can the Office of Advocacy help millions of small 
employers? I see three distinct ways. First, Advocacy can 
recognize and improve the human capital of the office. SBA's 
Office of Advocacy hosts some of the finest public servants in 
the government. Devoted economists, attorneys, and staff in the 
States and here in Washington have given the office the 
credibility and stature it deserves. Recognizing and 
highlighting the talent in the office is the first opportunity 
faced by the new Chief Counsel.
    It is not enough for the fine work produced by Advocacy to 
be simply put on a website. Academic institutions and think 
tanks across the country deserve to benefit from the wealth of 
information and expertise the Office of Advocacy has to offer. 
Staff from Advocacy should be the resource for small business 
policy formation.
    Second, the Office of Advocacy should stand on the 
principle that the formulation of sound policy is based on 
solid information. My goal, if confirmed, is to continue to 
bring Advocacy's research to the attention of decisionmakers 
here in Washington and bring renewed emphasis on getting that 
information outside the beltway. Advocacy's quality work 
belongs in the hands of every scholar who is studying small 
business and in every State legislator's hands who needs 
information before voting on bills that affect small business. 
The research products coming out of the Office of Advocacy 
belong in academia and in the halls of governments across the 
country.
    Third, Advocacy's involvement early in the regulatory 
process can improve the culture in regulatory agencies. Laws 
like the Regulatory Flexibility Act and the Small Business 
Regulatory Enforcement Fairness Act have produced results. The 
Office of Advocacy estimated cost savings of $3.4 billion last 
year as a direct result of differences made in regulatory 
policy as it affects small business.
    In real small business terms, $3.4 billion equates to an 
additional 1.3 million employees working in small businesses, 
receiving employer-sponsored health care. That is a positive 
sign and proof that Advocacy's role in the regulatory process 
is a critical one. Advocacy has helped ensure that small 
business saved money. Money that could be used to hire 
additional employees, buy new or upgrade existing computers, or 
provide employees with health care coverage. Most importantly, 
these cost savings were achieved without sacrificing 
environmental protection or worker safety.
    Bringing the voice of small business into agency 
deliberations early in the process makes a difference. 
Advocacy's goal should be to convince agencies that it makes a 
positive difference.
    Highlighting the human capital within SBA's Office of 
Advocacy, bringing their research outside the beltway, and 
helping change the regulatory culture of Federal agencies and 
departments provide a framework under which small business can 
benefit from Ad- vocacy's success.
    These challenges may seem monumental, but they are worth 
it. The confidence of President Bush, SBA Administrator Hector 
Barreto, this Committee, and my friends and colleagues, has 
impressed upon me what an honor this nomination truly is. If 
confirmed, I look forward to working with you to keep the 
entrepreneurial spirit of this country alive and well, through 
an Office of Advocacy devoted to ensuring a bright future for 
small business.
    That concludes my statement and I would be happy to answer 
any questions the Committee may have.
    Chairman Kerry. Thank you very much, Mr. Sullivan. It was a 
good statement and I appreciate your articulation of the 
possibilities of your job.
    Let me just ask you, if I may, a number of pro forma 
questions before I ask you a few substantive ones about 
policies, et cetera. First of all, is there any conflict of 
interest that you are aware of that might prevent you from 
properly being able to carry out your responsibilities?
    Mr. Sullivan. There are none, Mr. Chairman.
    Chairman Kerry. In order to be able to make that statement, 
have you had to divest yourself of any interest of any kind 
that the Committee should be aware of? Or is there anything you 
need to recuse yourself from in order to perform these 
responsibilities?
    Mr. Sullivan. I have signed an ethics agreement with the 
senior ethics official at the SBA that require me to recuse 
myself from involvement with the NFIB Legal Foundation for 1 
year. Other than that, there are no other situations that I 
should bring before the Committee.
    Chairman Kerry. What is the theory of the timeframe on the 
NFIB Foundation?
    Mr. Sullivan. Well, I am currently employed as executive 
director of the NFIB Legal Foundation. It is my understanding, 
after consulting with the head ethics official at SBA, that a 
1-year recusal from contact with my current employer is the 
standards ethics agreement.
    Chairman Kerry. I was just curious as to how they arrived 
at the 1 year. I understand what they are trying to do. I 
assume they feel that after 1 year you are purged of any bad or 
good instincts you may have?
    [Laughter.]
    Mr. Sullivan. I believe that the SBA senior ethics official 
was acting within the guidelines that he is comfortable with. I 
want to assure the Committee that as situations arise where 
there are questions of how to conduct my activities, I will 
consult regularly with the senior ethics official.
    Chairman Kerry. Fair enough. So it is essentially a 
discretionary fixing of the time period?
    Mr. Sullivan. Yes, sir.
    Chairman Kerry. Do you also agree that you will appear 
before any duly constituted committee of the U.S. Congress when 
requested, if confirmed? That any member of your staff 
appropriately asked to appear will also do so?
    Mr. Sullivan. Yes, Mr. Chairman. It is my intention to 
appear before committees of Congress as requested. It is also 
my full intention to engage regularly with both sides of the 
aisle on the House and Senate on a regular basis on issues of 
importance to small business.
    Chairman Kerry. Second, do you agree that you will yourself 
reply to any requests for information of any duly constituted 
committee of Congress and/or your staff also will do so?
    Mr. Sullivan. Yes, Mr. Chairman.
    Chairman Kerry. Thank you very much.
    You have been appointed by the President, introduced by the 
Administrator, and that is the normal course of events. That is 
appropriate. But how do you guarantee to the interested small 
business community that in this role, and it is a question I 
would ask not necessarily of you but of any ``independent'' 
office of advocacy for any particular agency, how you guarantee 
that level of independence that is so critical to the 
credibility of the office? And frankly, to its functioning?
    Mr. Sullivan. How do I guarantee the independence of the 
Office of Advocacy? I think first, I want to assure the 
Committee that I am answerable foremost to the views of small 
business owners that I am able to represent to the best of my 
ability if confirmed as Chief Counsel.
    As far as procedural independence, the Office of Advocacy 
is unique in the sense that while housed at the SBA, the Office 
of Advocacy has independence from testimony and opinions stated 
before congressional committees that do not necessarily have to 
be cleared through the Office of Management and Budget 
clearance process.
    The other way that procedurally the office has a statutory 
level of independence is the independent hiring authority. 
Through those levels of independence, the Office is able to 
both maintain its independence to effectively advocate for 
small business, while at the same time, working within a 
partnership with the Administrator and the Administration to 
best represent small business owners.
    Chairman Kerry. Do you feel prepared to tell either the OMB 
or the Administrator or the White House itself that you think 
they are on the wrong course, if they happen to be, in terms of 
small business interest?
    Mr. Sullivan. It is my understanding that Administrator 
Barreto fully expects from me, if confirmed as Chief Counsel, 
to represent to him and to the Administration the unbiased 
views of small business owners. To the extent those conflict 
with policy decisions underway or already made by the 
Administration or Hector Barreto, that is an understanding that 
he is willing to deal with on a daily basis, as long as I am 
presenting him the independent, unbiased view.
    Chairman Kerry. What about the resources within the Office? 
Have you had a chance to analyze it and make a judgment as to 
whether you have the resources necessary to perform the 
functions?
    Mr. Sullivan. It is my understanding, Mr. Chairman, and 
this is elaborated in my written statement, that the Office of 
Advocacy has the best and brightest. Through that, through 
recognizing, I believe I referred to in my written statement, 
the human capital in that office, that will encourage future 
best and brightest to come and work at the Office of Advocacy.
    To the extent that I have undergone a thorough review of 
responsibilities and personnel, I have not. That certainly is a 
priority, once in place. I can assure the Chairman that if 
there are gaps in the resources needed or additional help that 
can be done legislatively, I will come before the Committee and 
make those requests and engage in a dialog to make sure that 
the Office of Advocacy can accomplish its mission with the 
resources that it has.
    Chairman Kerry. So you are going to make that judgment as 
you go down the road, essentially?
    Mr. Sullivan. Yes, Mr. Chairman.
    Chairman Kerry. The small business community of the country 
is a diverse community. We have come, in this Committee, sort 
of by consensus almost always--again we work very much on a 
bipartisan basis. Over the years we have developed fairly 
strong support for some programs which, on occasion, are 
ideologically hot spots, and there have been pressures. Now you 
are coming from one business entity that, on occasion, has 
clashed with the concept of SBA itself. We have received some 
inquiries about that.
    Obviously, I have grown to be comfortable with that. Others 
on the Committee, people are prepared to proceed forward. But 
help those people who might worry that something they fought 
for over 10, 15, 20 years which is now a part of the SBA 
program will also be represented by you and advocated for by 
you?
    Mr. Sullivan. Mr. Chairman, the organization that is my 
current employer, NFIB, has historically prioritized for small 
business owners functions within SBA. When asked policy 
positions or votes on key pieces of legislation, NFIB only 
represents the consensus views of its membership of 600,000 
small business owners. So to the extent that there have been 
issues related to the functioning of SBA, my understanding that 
NFIB has asked Congress to prioritize within SBA because that 
is what the 600,000 members of NFIB have told the organization 
is their position.
    It is also my further understanding that historically NFIB 
has prioritized the Office of Advocacy as an extremely valuable 
resource for small business owners. So that, in part, makes it 
such an honor for me to appear before the Committee this 
morning, recognizing in my current employer how important the 
Office of Advocacy is to small business directly.
    With regards to how I will act as Chief Counsel of 
Advocacy, again I would like to assure the Committee that I am 
absolutely beholden to the non-biased views of small business 
owners. That will determine my policy decisions and directions 
taken before this Committee and before different policymakers 
around the country.
    Chairman Kerry. How important is the SBA itself, in your 
judgment?
    Mr. Sullivan. I do not know, Mr. Chairman. In answer to the 
question of my current position and my current understanding of 
SBA again, it has been NFIB's position to prioritize programs. 
And in that prioritization, they have highlighted the 
effectiveness of the Office of Advocacy. Senator Bennett did 
say ``read the question,'' and I want to be responsive to the 
Committee. But from a prioritization perspective, my focal 
point as one of the best parts of Government, and the best part 
certainly within SBA is the Office of Advocacy.
    Chairman Kerry. But stepping outside the Office of 
Advocacy, once you are in the Office of Advocacy you are not 
advocating for the Office of Advocacy, you are advocating for 
the interests of small business. Small business finds the SBA 
as its primary governmental contact and a very critical linkage 
on a whole series of programs. The STTR, SBIC, SBIR, 504, so 
forth, lending.
    What does your either analysis or study or experience tell 
you about those programs and the SBA's stewardship of them?
    Mr. Sullivan. Well Mr. Chairman, I have not conducted 
analysis of SBA programs. It is my understanding that the Chief 
Counsel position is charged with bringing the resources, the 
helpful resources of the Government, to small businesses across 
the country.
    Now to the extent that the helpful parts of Government, 
whether it be loan assistance or small business compliance 
assistance centers housed within the Environmental Protection 
Agency, or voluntary cooperative compliance systems within 
OSHA, within Department of Labor, it is my understanding that 
the Office of Advocacy is charged with making sure that small 
business owners across the country have access to those 
programs, understand and can use those programs.
    So to the extent that there is a governmentwide analysis of 
what is actually helpful to small business, it will be my job, 
if confirmed, to make sure that small businesses know about the 
programs that are helpful, whether it be in SBA or EPA or IRS. 
That is something that I am looking forward to if confirmed.
    Chairman Kerry. But you have no opinion, as you approach 
this job, about the capacity of the SBA itself?
    Mr. Sullivan. No, I do not, as I approach the job. I know 
that the Office of Advocacy does analyze trends and programs 
governmentwide that are helpful for small employers. I know 
there is reluctance of the Office of Advocacy to do a self-
examination of the Small Business Administration. If confirmed, 
I actually would share that caution, that the Office of 
Advocacy not look exclusively at SBA programs to analyze their 
benefit or detriment to small employers, because then you trend 
very slowly into the Inspector General function of the Agency.
    Chairman Kerry. Well, in the past, the Office of Advocacy 
has been deeply involved in making sure that small businesses 
get their fair share of Federal procurement. Specifically, that 
the Small Business Innovation Research program and technology 
transfer programs work well. Is it your intention to stay 
involved in those programs and in that effort?
    Mr. Sullivan. Yes, Mr. Chairman. Sorry to interrupt. It is 
my intention to keep active on those programs.
    Chairman Kerry. Whenever you say yes you can interrupt all 
you want.
    [Laughter.]
    Mr. Sullivan. Thank you. In particular, the Federal 
procurement example is a good one to show how the Office of 
Advocacy can be successful, because you've got the research 
component of the Office of Advocacy that analyzed Federal 
procurement trends. That research showed a disappointing trend 
as it affects small business. Then Advocacy didn't stop there. 
The Advocacy component of the office then took that research to 
the Federal Government, to the Defense Department and said 
``let us think outside of the box to cure this problem with 
Federal procurement and small business.''
    It is my understanding they have been very successful in 
thinking outside the box in getting small business tied into 
the appropriate ways, into the Defense Department, so that they 
can get the percentage of small business involvement higher for 
Federal procurement. That is a perfect example of one of the 
strengths of the Office of Advocacy.
    Chairman Kerry. What about the goal of Federal Government 
purchasing? We have set a goal of trying to achieve 23 percent 
of goods and services being purchased from small business. 
Regrettably, we have failed to meet that goal, the 
Administrations previously, on either party has failed to meet 
that goal for either women or small disadvantaged businesses, 
HUBZones and veteran-owned businesses. What do you intend to do 
to try to make sure that the Government achieves those goals?
    Mr. Sullivan. Mr. Chairman, it is my intention, if 
confirmed, to continue to work within the Government to impress 
upon those officials who are in charge of Federal procurement 
that it makes sense for the economy to get that percentage of 
small business involvement up.
    Chairman Kerry. Good. We would appreciate that. I think it 
does make sense and I think it is an enormously important way 
to lift small companies ultimately into big company status and 
share some of the benefits of the Federal procurement process.
    Should this Committee and the small business community in 
general read anything particular in the fact that while at the 
NFIB Legal Foundation you filed four amicus briefs, whereas in 
the whole history of Advocacy the Office has filed only one 
amicus brief? Do you view that as a role you will now assume in 
the Advocacy Office? Is this a different approach that you 
have?
    Mr. Sullivan. Mr. Chairman, my experience as head of the 
NFIB Legal Foundation should assure this Committee and others 
that I will approach the amicus role in a similar manner. Here 
is what I mean. Litigation should be an absolute last resort. 
It is expensive, it is time consuming and, from a small 
business owners' perspective, it can be devastating.
    The NFIB acts effectively because it advocates its 
positions in State legislatures, here in Congress, and in 
regulatory agencies. The idea of filing an amicus brief to 
represent those views in Federal court is used incredibly 
sparingly. I would like to urge this Committee that I will 
exercise similar restraint in my role as confirmed as Chief 
Counsel.
    The benefit of that office, in regards to litigation, is 
the cooperative nature of dealing with Federal agencies behind 
the scenes to achieve regulatory cost savings with the threat 
of litigation hanging over all of the parties' heads. But it is 
not my intention to exercise that threat of amicus authority to 
the detriment of valuable discussions that actually have 
resulted in significant regulatory savings over the years.
    Chairman Kerry. Thank you, Mr. Sullivan.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman. Once again, I thank 
you for bringing this hearing up and the promise of the vote, 
when we have the vote later. I think you were most thorough in 
your questioning. The only thing you probably left out were 
those Massachusetts connections that he has.
    [Laughter.]
    Senator Enzi. All of us on this Committee, of course, 
because of the Committee title, are extremely interested in 
small business. I may be more interested than any of the other 
States, because in Wyoming there is no business that is 
headquartered in Wyoming that would meet big business 
requirements according to our small business definition. So we 
are extremely concerned, and not about those ones that are up 
around the 500 employee one, because again even on ones that 
come in from out of state, we do not have many of those.
    I try to maintain the definition more down around the 
person who owns the business being the one who sweeps the 
sidewalks, cleans the toilets, does the accounting, and waits 
on customers, and not necessarily in that order.
    I do appreciate the efforts that you have made in the past 
on SBREFA. Giving people in small business a voice in the 
regulation process of the Federal Government, I think, is 
extremely important, not just from getting the regulation right 
but making sure that there is a reflection of the difference 
between a big business and a small business when it comes to 
dealing with these. Also recognizing that if we get it right 
for small business it usually helps out big business, too.
    I thank you for your willingness to serve in this position 
and I really do not have any questions for you. Thank you.
    Chairman Kerry. Thank you very much, Senator Enzi. You 
should be advised that I paid all the deference I could 
conceivably summon up to Massachusetts prior to your arriving 
here.
    Let me just say, as we close, I do not have any further 
questions. I thank you for your testimony this morning. Mr. 
Sullivan, rest assured, you have done well. If I could just 
say, maybe it is that Jesuit training up there at BC or 
something. But we are delighted to try to proceed forward as 
rapidly as we can. I hope that we can perhaps report it out of 
Committee today. It depends a lot on the floor schedule. But I 
am confident that quickly this week we should be able to move 
it forward.
    [The prepared statement of Mr. Sullivan follows:]
    [GRAPHIC] [TIFF OMITTED] T0015.011
    
    [GRAPHIC] [TIFF OMITTED] T0015.012
    
    [GRAPHIC] [TIFF OMITTED] T0015.013
    
    [GRAPHIC] [TIFF OMITTED] T0015.014
    
    [GRAPHIC] [TIFF OMITTED] T0015.015
    
    [GRAPHIC] [TIFF OMITTED] T0015.016
    
    [GRAPHIC] [TIFF OMITTED] T0015.017
    
    [GRAPHIC] [TIFF OMITTED] T0015.018
    
    [GRAPHIC] [TIFF OMITTED] T0015.019
    
    [GRAPHIC] [TIFF OMITTED] T0015.020
    
    [GRAPHIC] [TIFF OMITTED] T0015.021
    
    [GRAPHIC] [TIFF OMITTED] T0015.022
    
    [GRAPHIC] [TIFF OMITTED] T0015.023
    
    Chairman Kerry. I will leave the record open just for a few 
more hours, in case there is anybody else who wants to submit a 
statement and then we will close it by the time of our next 
meeting, whenever that occurs, this afternoon or otherwise.
    We stand adjourned. Thank you.
    [Whereupon, at 11:51 a.m., the Committee was adjourned.]



                           COMMITTEE BUSINESS

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2001

                              United States Senate,
          Committee on Small Business and Entrepreneurship,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 4:15 p.m., in 
room 216, U.S. Capitol Building, the Honorable John F. Kerry 
(Chairman of the Committee) presiding.
    Present: Senators Kerry, Levin, Harkin, Wellstone, Cleland, 
Landrieu, Edwards, Bond, Bennett, Snowe, Enzi, Allen and 
Ensign.
    Chairman Kerry. The Small Business Committee is convened 
for the purpose of voting out the nomination of Thomas Sullivan 
to be chief counsel for advocacy at the U.S. Small Business 
Administration. The clerk will call the roll.
    The Clerk. Mr. Levin.
    Senator Levin. Aye.
    The Clerk. Mr. Levin, aye.
    Mr. Harkin.
    Senator Harkin. Aye.
    The Clerk. Mr. Harkin, aye.
    Mr. Lieberman.
    Chairman Kerry. Aye by proxy.
    The Clerk. Mr. Lieberman, aye by proxy.
    Mr. Wellstone.
    Senator Wellstone. Aye.
    The Clerk. Mr. Wellstone, aye.
    Mr. Cleland.
    Senator Cleland. Aye.
    The Clerk. Mr. Cleland, aye.
    Ms. Landrieu.
    Senator Landrieu. Aye.
    The Clerk. Ms. Landrieu, aye.
    Mr. Edwards.
    Senator Edwards. Aye.
    The Clerk. Mr. Edwards, aye.
    Ms. Cantwell.
    Chairman Kerry. Aye by proxy.
    The Clerk. Ms. Cantwell, aye by proxy.
    Mrs. Carnahan.
    Chairman Kerry. Aye by proxy.
    The Clerk. Mrs. Carnahan, aye by proxy.
    Mr. Bond.
    Senator Bond. Aye.
    The Clerk. Mr. Bond, aye.
    Mr. Burns.
    Senator Bond. Aye by proxy.
    The Clerk. Mr. Burns, aye by proxy.
    Mr. Bennett.
    Senator Bennett. Aye.
    The Clerk. Mr. Bennett, aye.
    Ms. Snowe.
    Senator Snowe. Aye.
    The Clerk. Ms. Snowe, aye.
    Mr. Enzi.
    Senator Enzi. Aye.
    The Clerk. Mr. Enzi, aye.
    Mr. Fitzgerald.
    Senator Bond. Aye by proxy.
    The Clerk. Mr. Fitzgerald, aye by proxy.
    Mr. Crapo.
    Senator Bond. Aye by proxy.
    The Clerk. Mr. Crapo, aye by proxy.
    Mr. Allen.
    Senator Allen. Aye.
    The Clerk. Mr. Allen, aye.
    Mr. Ensign.
    Senator Ensign. Aye.
    The Clerk. Mr. Ensign, aye.
    Mr. Chairman.
    Chairman Kerry. Aye.
    The Clerk. Mr. Chairman, aye.
    Nineteen ayes, zero nays.
    Chairman Kerry. I have letters in support of the nominee to 
be included in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0015.024
    
    [GRAPHIC] [TIFF OMITTED] T0015.025
    
    [GRAPHIC] [TIFF OMITTED] T0015.026
    
    [GRAPHIC] [TIFF OMITTED] T0015.027
    
    [GRAPHIC] [TIFF OMITTED] T0015.028
    
    [GRAPHIC] [TIFF OMITTED] T0015.029
    
    [GRAPHIC] [TIFF OMITTED] T0015.030
    
    [GRAPHIC] [TIFF OMITTED] T0015.031
    
    [GRAPHIC] [TIFF OMITTED] T0015.032
    
    [GRAPHIC] [TIFF OMITTED] T0015.033
    
    [GRAPHIC] [TIFF OMITTED] T0015.034
    
    [GRAPHIC] [TIFF OMITTED] T0015.035
    
    [GRAPHIC] [TIFF OMITTED] T0015.036
    
    [GRAPHIC] [TIFF OMITTED] T0015.037
    
    [GRAPHIC] [TIFF OMITTED] T0015.038
    
    [GRAPHIC] [TIFF OMITTED] T0015.039
    
    Chairman Kerry. Thank you very much.
    [Whereupon, at 4:34 p.m., the Committee was adjourned.]
       
    [GRAPHIC] [TIFF OMITTED] T0015.040
    
    [GRAPHIC] [TIFF OMITTED] T0015.041
    
    [GRAPHIC] [TIFF OMITTED] T0015.042
    
  

                                <greek-d>

</pre></body></html>
